Audit Report




OIG-12-022
Management Letter for the Audit of the Department of the Treasury
Forfeiture Fund’s Fiscal Years 2011 and 2010 Financial Statements


December 6, 2011




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL                               December 6, 2011


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Management Letter for the Audit of the Department of the
                                    Treasury Forfeiture Fund’s Fiscal Years 2011 and 2010
                                    Financial Statements

            I am pleased to transmit the attached management letter in connection with the audit of
            the Department of the Treasury Forfeiture Fund’s (TFF) Fiscal Years 2011 and 2010
            financial statements. Under a contract monitored by the Office of Inspector General,
            GKA, P.C. (GKA), an independent certified public accounting firm, performed an audit of
            the TFF’s financial statements as of September 30, 2011 and 2010, and for the years
            then ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal Financial
            Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, GKA issued and is responsible for the accompanying management
            letter that discusses matters involving internal control over financial reporting that were
            identified during the audit, but were not required to be included in the auditor’s reports.

            In connection with the contract, we reviewed GKA’s letter and related documentation
            and inquired of its representatives. Our review disclosed no instances where GKA did
            not comply, in all material respects, with generally accepted government auditing
            standards.

            Should you have any questions, please contact me at (202) 927-5789, or a member of
            your staff may contact Catherine Yi, Manager, Financial Audits at (202) 927-5591.

            Attachment
                                                                       1015 18th Street, NW
Certified Public Accountants                                                Suite 200
& Consultants                                                         Washington, DC 20036
                                                                        Tel: 202-857-1777
                                                                        Fax: 202-857-1778
                                                                        www.gkacpa.com




     TREASURY FORFEITURE FUND


            MANAGEMENT LETTER
              FISCAL YEAR 2011



                    October 31, 2011




                               Member of the American Institute of Certified Public Accountants
                 Certified Public Accountants
                 & Consultants


                          Inspector General, U.S. Department of the Treasury, and the
www.gkacpa.com            Director, Treasury Forfeiture Fund

                          We have audited the Principal Statements (balance sheet and the related
                          statements of net cost, changes in net position, and budgetary resources,
                          hereinafter referred to as “financial statements”) of the Department of the
                          Treasury Forfeiture Fund (the Fund) as of and for the year ended September
                          30, 2011, and have issued an unqualified opinion thereon dated October 31,
                          2011. In planning and performing our audit of the financial statements of the
                          Fund, we considered its internal control over financial reporting in order to
                          determine our auditing procedures for the purpose of expressing our opinion on
                          the financial statements and not to provide assurance on the internal control.
                          We have not considered the internal control since the date of our report.

                          During our audit, we noted certain matters involving the internal control over
                          financial reporting that is presented in this letter for your consideration. The
                          comments and recommendations, all of which have been discussed with the
                          appropriate members of Fund Management, are intended to improve the
                          internal control over financial reporting. There were no management letter
                          comments carried over from prior years.

                          Fund management’s responses to our comments and recommendations have
                          not been subjected to the auditing procedures applied in the audit of the
                          financial statements and, accordingly, we do not express an opinion or provide
                          any form of assurance on the appropriateness of the responses or the
                          effectiveness of any corrective action described therein.

                          We appreciate the cooperation and courtesies extended to us. We will be
                          pleased to meet with you or your staff at your convenience to furnish any
                          additional information.




                          October 31, 2011



  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
   Fax: 202-857-1778
                                                 Member of the American Institute of Certified Public Accountants
                           Treasury Forfeiture Fund
                Management Letter Comments and Recommendations
                        Year Ended September 30, 2011


2011-1

VALUATION INFORMATION RECORDED IN THE APPRAISAL WORKSHEET
AND THE INVENTORY SYSTEM IS NOT CONSISTENT

During the physical inventory observation of contractor held property and related review of
seizure case files maintained by the individual bureaus, GKA noted instances where the
estimated domestic value information on the appraisal worksheet was inconsistent with the
financial value information recorded in the Seized Assets and Case Tracking System
(SEACATS) used by the property contractor and provided on the count sheets.

In its examination of forty five (45) seizure case files for Fortress at Judson Art Warehouse
(Vendor 1001297), Long Island, NY, GKA found three (3) instances where the estimated
domestic value information on the appraisal worksheet in the seizure case files was different
from that recorded in SEACATS. The values were subsequently adjusted by the Fund.

The details are as follows:

                                                                      Financial
                                                                                Amount per
 SEACATS Seizure Line                                       Unit of Value per
                      Description of Item               Qty                      Appraisal
    Number        #                                         Measure Count Sheet
                                                                                Worksheet
                                                                    (SEACATS)

 2007100190005701 001 Indian Antiquities                 10       EA        $          1    $243,560
 2007100190002001 001 Le Marche Painting                 1        PC        $          1    $ 75,000

 2010100100040801 002 Iraq Glass-Remaining               18       EA        $     5,057     $ 41,300

The Fund’s Appraisal/Valuation Policies and Procedures were not consistently followed by
the bureaus.

The Fund’s Appraisal of Property Policy states that “all vessels and aircraft and certain other
expensive or special items or vehicles will require an outside, third party professional
appraisal or marine survey.”

It further states that “if the appraisal is not available at the time the property is transferred to
the contractor, action should be taken to obtain the appraised value as soon as possible and
forward appraisal information to the service-wide contractor’s appropriate office”.

Each agency must have a policy in place that addresses reconciliation of differing appraisals
at different points of custody.


                                                2
                           Treasury Forfeiture Fund
                Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

Consistent information in appraisal worksheets and SEACATS (count sheets) in accordance
with the Fund’s Policies and Procedures is required to ensure effective property
accountability and related financial reporting.

RECOMMENDATIONS

1. TFF management should continue to enforce its appraisal/valuation policies and
   procedures to ensure that the estimated domestic value information on the appraisal
   worksheet obtained for special items maintained in the seizure case files by the bureaus is
   consistent with the information recorded in SEACATS and provided on the count sheets.

2. TFF Management should continue to monitor the procedures in place to ensure that
   controls relating to the reconciliation of differing appraisals at different points of custody,
   are working effectively.

MANAGEMENT RESPONSE

TFF management agrees with the above recommendations and has been working with
participant agencies and VSE to ensure effective property accountability and related financial
reporting.

With regards to CBP Seizure 2010100100040801, where the count sheet value, $5,057, did
not match the $41,300 appraisal value in the agency’s file, TFF asserts that there were two
line items in this seizure. Line item two of this seizure was appraised at $41,300. The
majority of items in line item two were remitted back to the owner. The appraisal value
(APV) of the items remitted was $36,243, leaving $5,057 for the appraisal value of the items
retained. The $5,057 amount appearing on the count sheet represents that portion of the
$41,300 that remains with the vendor/contractor.

With regards to CBP Seizures 2007100190005701 and 2007100190002001, TFF provides
the following assessment and remedy. The count sheet values are generated from
SEACATS. APV values of $1 are generated to the count sheets if there is no APV value
reflected in SEACATS. Effective immediately TFF’s Property Team will conduct periodic
SEACATS searches for identified property with APV values of $1, provide that list to the
affected agencies and VSE, and request that property appraisals are conducted, and/or that
SEACATS is updated as needed.




                                               3
                                  Treasury Forfeiture Fund
                       Management Letter Comments and Recommendations
                               Year Ended September 30, 2011

2011-2

OBLIGATIONS FROM A PARTICIPATING BUREAU WERE NOT RECORDED BY THE FUND

During our test for completeness of recordation of obligations from the Fund’s participating bureaus, we
noted that some refund obligations from the Internal Revenue Service (IRS) were not recorded in the Fund’s
accounting system. Out of a sample of 45 items totaling $7.6 million selected from the IRS listing through
June 30, 2011, five (11 percent) or $1.5million (20 percent) were not recorded by the Fund.

The bureaus submit obligations listings for all Fund Categories to the Executive Office for Asset Forfeiture
(EOAF). These are approved by EOAF and submitted to the Customs and Border Protection (CBP) National
Finance Center (NFC) in Indianapolis, the executive agent for certain operations of the Fund including
accounting, for recording in the accounting system.

IRS had previously submitted refund obligations to EOAF, which were recorded by the Fund. Additional
refund obligations for the same case were submitted with the April refund obligations to EOAF on May 24,
2011. However, this was not submitted to CBP NFC for recording because it was assumed by EOAF to be
the same request.

Office of Management and Budget (OMB) Circular No. A-123, as revised, Management’s Responsibility for
Internal Control, requires transactions to be promptly recorded, properly classified and accounted for in
order to prepare timely accounts and reliable financial and other reports. The documentation for
transactions, management controls, and other significant events should be clear and readily available for
examination.

This treatment is not consistent with the Fund’s policy of ensuring that revenue and related expenses are
matched in the contemporaneous year to avoid having revenue being deposited in one year and obligation
and liquidation of expenses related to that revenue occurring in a subsequent year.

RECOMMENDATIONS

1. TFF Management should monitor the procedures in place to ensure the completeness of the recordation
   of obligations submitted by participating bureaus by performing frequent reconciliations between
   obligation listings received from the bureaus and the amounts recorded in the accounting system.

2. TFF management should enforce its policies and procedures to ensure that all valid obligations of the
   Fund are recorded in the accounting system in accordance with the matching principle.

MANAGEMENT RESPONSE

TFF management agrees with the above recommendations and will conduct the necessary reconciliations
monthly to ensure that revenue and related expenses are matched in the same fiscal year. Currently the TFF
keeps a monthly spreadsheet of obligations received from the agencies, which is reconciled to the 1260
Open Obligations Summary Report received from the NFC. In order to ensure all obligations received are
entered onto the spreadsheet, TFF will request that the agencies conduct a quarterly reconciliation of the
1260 report as well, and affirm that all submitted obligations have posted. Additionally, TFF’s Internal
Control group will conduct a periodic reconciliation of requested obligations to the 1260 report.
                                                    4
